                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-19                                   Office of Inspections                                       July 2014




                  Inspection of
     the Bureau of International Security and
                Nonproliferation




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                                  1
Context                                                       3
Leadership                                                    5
Program Implementation                                        8
   Foreign Assistance                                         8
   Program and Financial Management                           8
Policy                                                       14
   Policy Planning and Implementation                        14
Resource Management                                          16
   Financial and Human Resources                             16
   Executive Office Role in Bureau Operations and Planning   16
   Executive Office Structure                                17
   Executive Customer Service and Outreach                   17
   Workforce Planning and Employee Development               18
   Contractors and Inherently Governmental Functions         19
   Equal Employment Opportunity Program                      21
   General Services                                          21
Management Controls                                          23
   Assistant Secretary Statement of Assurance                23
   Property Management and Purchase Card Program             23
Information Management                                       24
Security Management                                          27
List of Recommendations                                      30
Principal Officials                                          33
Abbreviations                                                34




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
   •   Bureau of International Security and Nonproliferation staff members are mission oriented
       and proud of their work. They appreciate the roles played by the Assistant Secretary and
       deputy assistant secretaries as subject matter experts, skilled negotiators, and advocates
       of the bureau’s interests.

   •   Colleagues in the Department of State and the interagency community acknowledge that
       the Bureau of International Security and Nonproliferation is effective in the foreign
       policy area. Its expertise, flexibility, and experience have been on full display during the
       ongoing international campaign to remove Syria’s chemical weapons.

   •   The bureau’s legacy responsibilities for a variety of treaties, regimes, and agreements,
       along with current and world-events-driven tasks, pose a challenge to the small
       leadership team, which has not paid sufficient attention to managing bureau resources.

   •   The bureau is giving short shrift to policy planning and resource management and should
       reestablish a formal strategic planning function.

   •   Bureau leadership does not give sufficient importance to workforce planning,
       professional development, and training. Upward mobility is limited, and a significant
       number of employees are eligible to retire. Dependence on contractors creates
       vulnerabilities and represents a potential control risk. These issues are not exclusive to
       the Bureau of International Security and Nonproliferation; nevertheless, the bureau must
       address them.

   •   The bureau has nearly $600 million under active management. To provide proper
       management, oversight, and stewardship of the significant foreign assistance funds under
       its purview, the bureau needs a comptroller’s office, better program and financial
       information management tools, and program officers qualified to manage multimillion-
       dollar project portfolios.

   •   In 2012, an independent auditor, under the direction of OIG, audited the controls
       surrounding funds handled by the Nonproliferation and Disarmament Fund, which has
       requested a followup OIG review. Funds for programs in other offices have not been
       audited. At the suggestion of the inspection team, the Bureau of International Security
       and Nonproliferation leadership agreed to assist OIG with its plan to audit those offices.

   •   The executive director is underutilized. Although bureau staff is generally satisfied with
       routine executive office services, the director plays no role in bureau resource
       management or strategic planning.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between January 3 and March 21, 2014.
Ambassador Maura Harty (team leader), Charles Silver (deputy team leader), Michael Boorstein,
Mary Daly, Ambassador Cynthia Efird, Deborah Graze, Dolores Hylander, Christopher Mack,
Monica O’Keefe, Ambassador Peter Prahar, Iris Rosenfeld, and Moosa Valli conducted the
inspection.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
         The principal mission of the Bureau of International Security and Nonproliferation (ISN)
is to prevent, disrupt, and roll back, where possible, the proliferation of weapons of mass
destruction (WMD) such as nuclear, radiological, biological, and chemical weapons; their
delivery systems; and destabilizing conventional weapons. 1 The bureau proudly notes President
Obama’s 2009 Prague speech in which he stated “clearly and with conviction America’s
commitment to seek the peace and security of a world without nuclear weapons.” 2 That is ISN’s
inbox. It would be difficult to pick up a newspaper over the past year and not see a role for the
bureau in some of the most important issues of the day. Mission orientation and subject matter
expertise define the bureau’s workforce. OIG questionnaires and interviews with staff indicate
that morale is good.

        ISN is one of three bureaus that report to the Under Secretary for Arms Control and
International Security (Under Secretary). In 2004, a single team of OIG inspectors carried out a
sequential inspection of three former bureaus: the Bureaus of Nonproliferation, Arms Control,
and Verification. The team’s key recommendation was that the three bureaus be merged into
two. This time, two different OIG teams conducted concurrent inspections of ISN and its sister
Bureau of Arms Control, Verification, and Compliance (AVC). The two bureaus, plus the
Bureau of Political-Military Affairs (PM), share a joint executive office housed administratively
in ISN.

        Since the previous inspection, ISN has undergone continuous change, most recently in
2010, when the current structure went into effect. ISN derives its authority from 65 separate
sources, including constitutional, executive, and legislative authorities; treaties, conventions, and
agreements; multilateral nonproliferation regimes; United Nations agreements; and other
authorities. 3 The bureau also derives authority from the National Security Presidential Directive
17, the Quadrennial Diplomacy and Development Review, and the President’s 2009 Prague
speech. Together, these encompass a complex and wide-ranging array of responsibilities. ISN
brings considerable human and financial resources to bear in carrying out these responsibilities.

         Foreign assistance funding plays an important role; in FY 2013, the bureau received
approximately $270 million and, with unliquidated obligations from prior years, is managing
close to $600 million, including funds from other agencies and other countries. Effective
management and oversight of these financial resources are key to achieving the bureau’s
mission.

        ISN’s recent work on such high-profile matters as Syria’s chemical weapons, the Arms
Trade Treaty, and peaceful nuclear cooperation (“1-2-3”) agreements speak to the bureau’s
expertise, flexibility, and ever-evolving mission. However, a 2005 name change from the Bureau
of Nonproliferation to the Bureau of International Security and Nonproliferation may have
blurred the Department of State’s (Department) and the interagency community’s understanding
of ISN’s broad role and capabilities. For instance, several in-house and interagency interlocutors

1
  FY 2015 Bureau Resource Request, Bureau of International Security and Nonproliferation, p. 3.
2
  Remarks by President Barack Obama; Hradcany Square, Prague, Czech Republic, April 5, 2009.
3
  1 Foreign Affairs Manual 451.4.

                                            3
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

expressed confusion about the bureau’s mission, as well as possible overlapping responsibilities
with AVC. These points need to be clarified and communicated within the Department and
beyond. ISN must also adjust to the changing priorities and capabilities of its Departmental and
outside partners and regularly review its role in that context. Leadership must address the
following fundamental questions: Can ISN effectively cover all the turf it has staked out? What
does ISN do best? Where can ISN most effectively add value in support of U.S. Government
policies?




                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
        The President’s Prague speech determined ISN’s overarching strategic goals: (1) a
stronger global nuclear nonproliferation regime; (2) better controls to deny access to WMD, their
delivery systems, and destabilizing conventional weapons; and (3) a reduced risk of WMD
terrorism. These goals require technical expertise, diplomacy, and an ability to work with
partners in the Department, internationally, and within the interagency community. ISN’s
leadership team, comprising an Assistant Secretary and three deputy assistant secretaries, desires
to become more fully integrated in the policy formulation process at the Department and seeks
opportunities to expand its already key role.

        OIG questionnaires and interviews indicate that ISN’s Assistant Secretary is well-
regarded. He works on some of the bureau’s highest profile efforts. Despite the heavy demands
made by his personal involvement in Arms Trade Treaty negotiations and Syria’s chemical
weapons disposal, he still managed to develop relationships with key interlocutors in China,
Pakistan, and South Korea; led the most recent preparatory meetings for the 2015 Nuclear
Nonproliferation Treaty Review Conference; and maintained a punishing travel schedule to
address a myriad of other issues. He speaks forcefully and authoritatively and seeks opportunities
for outreach through the media and with Congress. Personnel within the bureau, the Department,
and the interagency community like and respect him.

        ISN’s principal deputy assistant secretary, a 30-year veteran of the arms control and
nonproliferation community, is consistently described as brilliant by colleagues and
subordinates. His portfolio includes day-to-day bureau operations, as well as non-nuclear and
counterproliferation issues. He supervises four offices. He is responsible for developing and
overseeing U.S. policy related to the nonproliferation of chemical, biological, missile, and
destabilizing conventional weapons; counterproliferation in all of these areas; and nuclear
weapons. The portfolio also includes export controls, nonproliferation regimes, interdiction,
sanctions, the Proliferation Security Initiative, United Nations Security Council Resolution 1540,
and counterproliferation dialogues with key countries.

        The deputy assistant secretary for Nuclear Affairs supervises the work of three offices
and is responsible for the diplomatic, technical, and political aspects of nuclear nonproliferation.
This portfolio includes responsibility for the Nuclear Nonproliferation Treaty; relations with the
International Atomic Energy Agency, including administration of a $90 million program; nuclear
safety and security; peaceful nuclear cooperation (“1-2-3”) agreements; and broad bilateral
dialogues.

       The deputy assistant secretary for Nonproliferation Programs oversees four of the
bureau’s five foreign assistance program offices as well as the Office of Strategic
Communications and Outreach.

      Three years ago, the bureau refocused its Office of Strategic Planning and Outreach to
emphasize its public diplomacy activities, renaming it the Office of Strategic Communication
and Outreach. The office director enhanced the bureau’s public diplomacy profile; however,
elements of the strategic planning function appear to have been lost.


                                        5
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        ISN’s leadership team focuses heavily on policy but less so on managing the bureau’s
human and financial resources. Two bureau principals are engaged in an egregious interpersonal
conflict that should not be tolerated. Although leadership has counseled both individuals, the
issue remains unresolved, allowing tension and inefficiency to affect daily bureau operations as
well as interagency and international meetings. In addition, there are several examples of poor
managers in need of counseling. Although upper management is aware of some leadership issues
within individual offices, it has not resolved these problems.

        The bureau delegates authority for managerial oversight to the individual office level. An
unfortunate consequence of this approach is that management controls and resource management
are not getting the top-level attention they require. This deficiency is particularly acute in the
administration of foreign assistance funds, where hard work and obvious good intentions are no
substitute for standardized procedures and best practices.

        ISN leadership agreed to the OIG team’s recommendation to audit the program offices
that have never been audited. A previous audit 4 of the Nonproliferation and Disarmament Fund
(ISN/NDF) found that the Fund’s controls over the contracting process were sufficient to meet
many objectives but needed improvement to ensure compliance with all Federal and Department
requirements. The audit resulted in 18 recommendations, including 5 for improving controls over
contracting, 5 for developing formal controls over project management so that key aspects of
project management were consistently executed across contracts, and 8 for improving financial
management.

       The bureau’s executive director serves ISN, AVC, and PM. Her performance is
nominally reviewed by ISN’s Assistant Secretary, with whom she has only infrequent, periodic
meetings. ISN’s principal deputy assistant secretary, the bureau’s day-to-day manager, sees the
executive director on an “as-needed” basis. Because the executive office operates relatively
independently of senior leadership, the bureau is not making effective use of this office.

        Some of the most acute questions facing the bureau revolve around long-term workforce
planning. ISN employs 412 people: 215 Civil Service; 23 Foreign Service; and the remainder
via contract, detail, or other hiring mechanisms. Approximately 34 percent of the Civil Service
workforce is now, or will be in the next 5 years, eligible to retire. Furthermore, one-fourth of the
42 Civil Service employees who are at their highest pay grade (GS-15) are also at their top step,
leaving little room for advancement. Staff interviews and responses to personal questionnaires
indicate that a lack of upward mobility at all grades is a factor in their search for new
opportunities. In addition, approximately half of the employees in ISN’s foreign assistance
program offices are on personal services or other contracting mechanisms, raising concerns
about their conducting inherently governmental work.

        These conditions highlight the need for immediate workforce planning to address issues
such as a better balance among Foreign Service, Civil Service, and contractor workforces;
recruitment; retention; and training. In anticipation of the retirement of its most experienced and
senior experts, ISN needs to focus its efforts on recruitment and retention of the next generation


4
 Audit of Nonproliferation and Disarmament Fund Controls Over Contracting and Project Management and
Integrity of Financial Data, Report No. AUD-FM-13-17, December 2012.
                                          6
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

of employees to replace the talent and expertise ISN is losing through retirement. Employees
need to be sufficiently trained to carry out their assigned tasks as permitted under the law.

        The larger question, which the OIG inspectors raised, is whether ISN should grapple with
these workforce planning issues alone, or whether the Under Secretary for Arms Control and
International Security should pursue a common approach among the bureaus under her authority
to ensure a more effective response to these challenges.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Program Implementation
Foreign Assistance

         The OIG team examined ISN’s strategic planning, budgeting, financial and performance
management, and program evaluation processes to assess how the bureau manages its foreign
assistance portfolio. Responsibility for implementing foreign assistance programs and projects
falls to five bureau offices.

   •   The Office of Multilateral Nuclear and Security Affairs (ISN/MNSA) is responsible for
       managing the U.S. Government’s extra-budgetary contribution to the International
       Atomic Energy Agency. FYs 2009–2013: $458 million in foreign assistance funding
       plus $71 million from other U.S. Government agencies.

   •   The Office of Export Control Cooperation (ISN/ECC) is responsible for the Export
       Control and Related Border Security program to establish effective strategic trade
       controls. FYs 2009–2013: $338 million in foreign assistance funding plus $3.8 million in
       non-U.S. Government contributions.

   •   The Office of Cooperative Threat Reduction (ISN/CTR) is responsible for programs to
       enhance nuclear, chemical, and biological security. FYs 2009–2013: $336 million in
       foreign assistance funding plus $3.7 million in other U.S. Government funding and $5.8
       million in non-U.S. Government contributions.

   •   The Office of Weapons of Mass Destruction Terrorism (ISN/WMDT) is responsible for
       helping partner governments prevent, detect, and respond to WMD terrorism. FYs 2009–
       2013: $12 million in foreign assistance funding.

   •   ISN/NDF is responsible for implementing specific nonproliferation projects. ISN/NDF
       receives “no-year” funds, which do not expire and are available until expended, and
       currently has 30 active projects with a budgeted amount of $381 million.

        ISN program officers are working to refine broad strategies and country plans to direct
their efforts better. They are making impressive efforts to obtain useful performance information
from their implementers, who include public international organizations, other U.S. Government
agencies, contractors, and grantees. Program managers are continuing to develop objectives,
measurable evaluation criteria, and evaluation mechanisms to judge the impact of their projects
and programs.

Program and Financial Management

Comptroller

       ISN has nearly $600 million under active management, including current and prior-year
foreign assistance funding, other U.S. Government funding, and contributions from foreign
countries. As described previously, a multiplicity of actors and offices share responsibility for
managing these funds; however, no one monitors funding flows from start to finish.
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       The resource management division in the bureau’s executive office works with four of
the bureau’s five program offices (ISN/ECC, ISN/MNSA, ISN/CTR, and ISN/WMDT) and
externally with the Department’s Bureau of Budget and Planning, the Office of Acquisitions
Management, and the Office of U.S. Foreign Assistance Resources to formulate and execute
budgets and to maintain and monitor ISN’s foreign assistance funding for a broad array of
contracts, grants, and interagency agreements. The fifth office, ISN/NDF, has its own
appropriation 5 and financial management specialist with the organizational designation of
comptroller.

        There is little standardization of processes or controls among the offices; they have not
pursued best practices. Given the large amounts of money flowing into and out of the bureau, the
current structure creates a vulnerability that funds will not be used efficiently and effectively.
Each office has unique internal systems, including spreadsheets, for tracking its programs,
budgets, and spending. Employees manually reconcile these informal “cuff” records with reports
the executive office’s resource management division prepares, using the Departmentwide Global
Financial Management System (GFMS). Many staff members with various levels of expertise
and engagement are involved in this effort. The quality of required coordination with other
offices in the Department is uneven.

        By contrast, several other Department bureaus with significant foreign assistance
programs have developed business structures that maximize standards and controls for all
bureau-managed foreign assistance programs. For example, the Bureau of Population, Refugees,
and Migration has an Office of the Comptroller that is independent of the bureau’s executive
office and that reports to the bureau’s principal deputy assistant secretary.

        The current structure in ISN does not facilitate the efficient and effective use of the large
amounts of money under bureau management. A comptroller office would establish uniform
standards, improve accountability, increase transparency, and monitor performance to promote
the effective utilization of funds.

Recommendation 1: The Bureau of International Security and Nonproliferation, in coordination
with the Bureau of Human Resources, should establish a comptroller’s office to oversee
management of all bureau foreign assistance funding. (Action: ISN, in coordination with
DGHR)

Unliquidated Obligations

        Management of prior-year unliquidated obligations in ISN, and in ISN/ECC in particular,
is inadequate. ISN has routinely failed to use foreign assistance funding by the end of the 5-year
period of availability. Inspectors compiled information from the GFMS Data Warehouse
indicating that a minimum of approximately $2 million in ISN foreign assistance funds were
canceled at the end of FY 2013, $2.2 million at the end of FY 2012, $3.8 million at the end of
FY 2011, and $2.6 million at the end of FY 2009. FY 2010 results were modest: $50,000.
Project managers and financial management staff in most program offices do not have direct
access to GFMS data. Instead, they must request information from the financial management

5
 U.S. Department of State memo 9411334, May 13, 1994, Subject: First Meeting of the Non-Proliferation and
Disarmament Fund (NDF) Review Panel.
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

team in the executive office’s resource management division every time they need to track and
reconcile obligations and expenditures.

Recommendation 2: The Bureau of International Security and Nonproliferation should request,
and the Bureau of the Comptroller and Global Financial Services should grant, read-only access
to the Global Financial Management System to financial management staff in the program
offices. (Action: ISN, in coordination with CGFS)

        ISN is currently at risk of failing to use FY 2014 funds by the allotted time period,
particularly for funds managed by ISN/ECC. At the time of the inspection, a new office director
was trying to reconcile 108 unliquidated obligations involving approximately $4.3 million in
foreign assistance funding that will expire on September 30, 2014. Many obligations showed
long and unexplained periods of inactivity: 15 obligations totaling $311,623 had no activity for
2 to 3 years; 26 obligations totaling $358,498 had no activity for 3 to 4 years; and 25 obligations
totaling $424,141 had no activity for 4 to 5 years.

        ISN/ECC staff claimed it reviewed unliquidated obligations regularly but was unable to
provide documentation to justify keeping these funds tied up in long-inactive agreements. In
some cases, it may have been impossible to proceed with projects. In others, project activity
appeared to have ended, but closeout procedures had not been completed. In one case, nearly
$2 million has languished on the books, owing to a failure of communication between program
offices. Nineteen obligations, totaling $765,065, had been inactive since the date they were
established—a red flag that should have been evident from even a cursory review. Failure to
reconcile these and other prior-year balances has precluded their use for other purposes and
reflects a lack of attention to financial management at the office and bureau levels.

Recommendation 3: The Bureau of International Security and Nonproliferation should institute
a monitoring regime for unliquidated balances, supervised by senior leadership, to deobligate
unnecessary balances and to document justifications for continuing obligations that are not
showing quarterly activity. (Action: ISN)

System Standardization

        ISN program and project portfolio managers lack standardized tools to manage foreign
assistance programs. Instead, they struggle with a range of systems, including GFMS, the State
Assistance Management System, the Integrated Logistics Management System, and others. Staff
cannot integrate or readily retrieve the information in these systems in order to respond to routine
inquiries from stakeholders. Program officers struggle to locate the information they need to
provide continuity and direction and to execute tasks properly. For any given project, there are a
multitude of associated documents: statements of work, action memos, status reports, email
exchanges, meeting minutes, trip reports, and decision papers. The current practice of searching
for a specific document on a shared drive is difficult at best and not always successful in locating
up-to-date and complete information.

       Absent a Departmentwide tool to address these challenges, ISN program offices have
independently developed systems to track their respective workloads. It is a challenge to capture
program and financial information generated by interagency agreements; grants and cooperative
agreements; contracts; and voluntary contributions with many types of project implementers
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

such as grantees, contractors, other U.S. Government agencies, foreign governments, and public
international organizations. In addition, GFMS cannot interface automatically with any of the
office-level tracking systems. As a result, program officers manually and laboriously extract
financial information from GFMS reports, reconcile discrepancies, and attribute charges to
specific programs and projects. Examples of the disparate approaches taken to gathering
essential information include the following:

   •   ISN/NDF has developed a $2.5 million cloud-based Financial Information Management
       System to provide its program officers up-to-date information. This system and GFMS do
       not interface.

   •   ISN/ECC has invested $200,000 in a project that, if successful, would create a financial
       management dashboard with financial and program information for its global programs
       and bilateral programs in more than 60 countries.

   •   ISN/CTR has created an Excel-based spreadsheet, informally named “The Big Dog,” to
       track financial and program performance of its ongoing projects. Users of this system
       report, not surprisingly, that it has grown unwieldy and, in any case, does not colocate
       financial and program data or provide a search capability.

       Program officers say an effective system would provide access to all information related
to ISN programs and projects, including strategic planning documents, budgeting information,
program designs, agreements, financial data, performance reports, evaluations, and memoranda.
Such a system would include the following:

   •   Web-based, user-friendly interfaces and templates for collecting information (populating
       the database) from implementers, including templates that force performance reporting to
       refer to the statements of work and agreed-upon goals of a project;

   •   A document management warehouse for storing and retrieving information;
   •   A system of triggers to flag new proposals, requests for amendments and extensions, and
       overdue reports and missed milestones;

   •   An automatic feed of financial information from the GFMS with flags for data that will
       need to be reconciled.

Recommendation 4: The Bureau of International Security and Nonproliferation, in coordination
with the Bureau of Information Resource Management, the Bureau of the Comptroller and
Global Financial Services, and the Bureau of Administration, should develop a single, searchable
database that interfaces with the Department’s Global Financial Management System. (Action:
ISN, in coordination with IRM, CGFS, and A)

Recommendation 5: The Bureau of International Security and Nonproliferation, in coordination
with the Bureau of Information Resource Management, the Bureau of the Comptroller and
Global Financial Services, and the Bureau of Administration, should proceed with development
of an interface between the Nonproliferation and Disarmament Fund’s Financial Information


                                      11
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Management System and the Global Financial Management System. (Action: ISN, in
coordination with IRM, CGFS, and A)

Professional Development

        The 2004 OIG inspection report noted that, “program management skills are paramount
requirements.” 6 They still are. ISN lacks a stable cadre of employees to manage professionally
the multimillion-dollar program and project portfolios involving a multiplicity of obligation
mechanisms (interagency agreements, grants and cooperative agreements, contracts, and
voluntary contributions to public international organizations) and a broad range of implementers
(grantees, contractors, other U.S. Government agencies, foreign governments, and public
international organizations).

        The bureau was unable to provide comprehensive training records for its employees. A
review of training records submitted by the five program offices indicate that some long-serving
program and project managers have not taken the introductory Foreign Service Institute courses
in grants and contracts, despite having considerable responsibility for the funds under their
control. Many others have just completed these introductory courses or recently have signed up
to do so.

        Grants officer representative certifications are valid for 3 years; contracting officer’s
representative certificates are valid for 2 years. These representatives are expected to maintain
and further develop their skills during their certification period. The Office of the Procurement
Executive has established standards and recommended courses and other activities that satisfy
continuing education requirements.

        In addition to not making use of all training available at the Foreign Service Institute,
project portfolio officers have not taken advantage of additional professional training available in
the private sector. For example, only one program manager in the bureau has received a Project
Manager Professional certificate—the industry-recognized standard—from the Project
Management Institute. Only this individual and a handful of others participate in the
Department’s Program and Project Management Community of Practice.

         The absence of professional development programs in ISN/CTR is of special concern.
The office is highly dependent on contractors and American Academy for the Advancement of
Science Fellows, who are subject matter experts but are also ineligible for program management
training through the Foreign Service Institute or other U.S. Government institutions. At the time
of this inspection, 15 of 18 program and project portfolio managers fell into these ineligible
categories. However, ISN has not secured program and project management training for them
from private sources recommended by the Office of the Procurement Executive. Lack of training
prevents managers from performing their duties adequately and places funds and projects at risk.

Recommendation 6: The Bureau of International Security and Nonproliferation should require
that all eligible program and project management personnel complete contracting officer’s
representative and grants officer representative training and obtain certification. (Action: ISN)


6
    Inspection of the Bureau of Nonproliferation, Report No. ISP-I-05-50, December 2004, p. 20.
                                              12
                                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 7: The Bureau of International Security and Nonproliferation should provide
program and project management training, contracting with private providers for such training
when necessary. (Action: ISN)




                                      13
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy
Policy Planning and Implementation

        Senior U.S. Government officials commend the bureau’s flexibility, technical expertise,
tenacity, and ability to work well within the Department and the interagency community. ISN’s
recent role in helping to negotiate the plan to destroy Syria’s chemical weapons; the successful
negotiation of an Arms Trade Treaty; the implementation of numerous peaceful nuclear
cooperation (“1-2-3”) agreements; its ongoing daily support of a host of nonproliferation regimes
and treaties; and access to funds to respond to such issues help make ISN, as someone called it,
“the Department’s Swiss army knife.”

         Department and interagency colleagues praised ISN’s role in the ongoing Syria chemical
weapons process as an example of ISN’s ability to address emerging threats successfully. Among
the factors that led to ISN’s high-impact role were forward planning, technical expertise,
negotiating skill, and productive relationships with other bureaus and agencies. ISN worked
closely with National Security Council staff, the interagency community, and the Department’s
regional bureaus, and assembled experienced staff from throughout the bureau. For example,
area experts from the Office of Regional Affairs worked with ISN’s chemical weapons experts,
and the bureau sent staffers with negotiating experience temporarily to the Organization for the
Prohibition of Chemical Weapons. Leadership now should take the time to review this
experience, apply lessons learned, and strengthen the bureau’s institutional ability to replicate
this strong performance.

        ISN’s tool kit is varied, including diplomatic engagement, sanctions, export licensing,
interdiction, and support of the visa process: so too are the tasks that it has set for itself. The 65
authorities that govern ISN’s work entail improving, expanding, and updating dozens of
conventions, treaties, agreements, and regimes affecting almost every country worldwide.
Additionally, ISN has the mandate to support the President’s Nuclear Security Summit process
and the 2015 Nuclear Nonproliferation Treaty Review Conference.

         ISN has failed to examine systematically the key question, Can ISN do all that it has
staked out? Related to that question is how the bureau matches resources to priorities. Although
the bureau’s 2014–2016 Strategic Plan addresses some of these issues, critical top-level
assessments, with occasional course corrections, such as matching programs to policy, measuring
results of efforts, reassessing priorities, and coordinating bureauwide efforts have taken a back
seat to the many pressing issues of the day.

       Meaningful strategic planning must be reinstated. ISN’s Office of Strategic Planning and
Outreach, known since 2010 as the Office of Strategic Communication and Outreach, was
“created to address a perceived gap in the ability of [bureaus reporing to the Under Secretary for
Arms Control and International Security] to address future threats innovatively, identify
emerging proliferation threats, and develop a coordinated and strategic counterproliferation
response.” 7 One employee serves as a “strategic planner,” with near exclusive responsibility for
formulating ISN’s resource requests. Although that employee communicates regularly with the

7
 Key Transformation Practices Could Have Helped in Restructuring Arms Control, Government Accountability
Office Report No. GAO-09-738, June 2009, p. 11.
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

bureau’s principal deputy assistant secretary when preparing resource requests and reports, no
bureauwide process or structure exists, and many ISN offices feel that they could contribute but
are left out. A mechanism is missing, per 3 Foreign Affairs Manual (FAM) 1214, for action
officers and senior-level experts to plan strategically, communicate effectively, learn, innovate,
and collaborate.

        According to ISN’s 2014–2016 Strategic Plan, “Innovation is a measure of performance:
threats evolve, and if we do not adapt, we will fail to meet our policy objectives. We will
continue to develop new mechanisms, approaches, tools, and partnerships to address emerging
threats and overcome challenges.” ISN lacks a bureau strategic planning entity. If reinstated,
such a plan could keep abreast of bureauwide efforts, promote priorities as established by bureau
and Department leadership, and recommend ways to coordinate the two effectively. According to
interviews with bureau personnel, the lack of such an entity has allowed some offices to feel
isolated, devoting efforts to tasks viewed on occasion as mere ends in themselves, with little
connection to bureau priorities. ISN may, as a result of not having such an entity, be missing
opportunities to leverage its collective skills and expertise as it did so well in the recent Syria
chemical weapons example.

Recommendation 8: The Bureau of International Security and Nonproliferation should
formalize a strategic planning function, reporting to the Assistant Secretary, with responsibility
for establishing priorities, identifying emerging issues, and recommending appropriate
deployment of bureau resources. (Action: ISN)

Biological Weapons Policy

       By and large, the 2010 reorganization achieved its objective of delineating the
responsibilities of AVC and ISN and reducing duplication and overlap. However,
counterproductive overlap remains in the area of biological weapons policy. ISN’s Biological
Policy Staff and AVC’s Office of Chemical and Biological Weapons have intersecting
responsibilities, especially with regard to the Biological Weapons Convention. The views of the
two bureaus on policy differ. Complicating matters, the FAM assigns the two bureaus similar, if
not overlapping, responsibilities,8 sometimes resulting in disagreements between the two staffs.
As a result, the United States is less effective in advancing its biological weapons policy agenda,
and the Department is less effective in the interagency community.

Recommendation 9: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of International Security and Nonproliferation, should develop a
policy paper, cleared at the deputy assistant secretary level, outlining the policy parameters of
bureau activities involving the Biological Weapons Convention. (Action: AVC, in coordination
with ISN)




8
 The text of 1 FAM 453.3(2) states that ISN’s Office of Missile, Biological, and Chemical Nonproliferation
“develops and implements policies and programs to impede, roll back, and eliminate the proliferation of chemical
and biological weapons,” whereas 1 FAM 444.1(1) states that AVC’s Office of Chemical and Biological Weapons
Affairs “implements efforts to impede and roll back the threat of chemical and biological weapons.”
                                           15
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
Financial and Human Resources

                                 Bureau Resource Management Chart
                Foreign       Civil       Contractors*        When         Detailees     Students/        Total
                Service      Service                         Actually                     Interns
                                                            Employed
U.S. Staff
Domestic             23          215              141               5            12            16           412
U.S. Staff
Overseas              1             0                0              0             0              0              1
*Includes information technology contractors, consultants, subject matter experts, and personal
services contractors. 9

       Resources Controlled by Bureau of International Security and Nonproliferation
                           Funding Description                                                  Amount
       (Diplomatic and Consular Programs and Public Diplomacy)                               (in thousands)
FY 2012 Actual Resources Allotted to the Bureau                                                         18,553
FY 2013 Actual Resources Allotted to the Bureau                                                         17,628
FY 2014 Actual Resources to be Allotted to the Bureau                                                   17,806

Foreign Assistance
FY 2012 Actual Resources Allotted to the Bureau                                                          277,169
FY 2013 Actual Resources Allotted to the Bureau Estimate                                                 268,456
FY 2014 Actual Resources to be Allotted to the Bureau**                                                  266,421
**FY 2014 is based on the Office of U.S. Foreign Assistance Resources’ anticipated release.

Executive Office Role in Bureau Operations and Planning

        The executive office provides common support services to ISN, AVC, and PM. These
services include budgeting, human resources, general services, information technology, and
security. The consolidated staffing of these bureaus is approximately 600 U.S. direct-hire
employees. PM is the largest bureau by staffing and funding.

        The executive office received average scores for customer service and routine operational
functions on OIG questionnaires; however, strategic resource management and management
controls in ISN do not get the level of attention they require. The executive office operates
relatively independently of senior leadership and plays little role in either the administration or
allocation of foreign assistance funds.

       The structure of the executive office contributes to its shrinking role. Although the
executive office’s major client is PM, the office resides administratively within and is supervised
by ISN. Further complicating the arrangement, the principal deputy assistant secretary of AVC is
the executive director’s rating official, and the reviewing official is ISN’s Assistant Secretary.
Department regulations 1 FAM 441 and 1 FAM 451 and work requirements of the rating and

9
 Personal services contract authority is granted in 22 U.S. Code, Section 2349bb Part IX–Nonproliferation and
Export Control Assistance.
                                           16
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

reviewing officials do not include oversight of the executive office. The executive director’s
participation in regular discussions is limited by the fact that ISN, AVC, and PM hold their
senior staff meetings at the same time. Moreover, some traditional executive office functions,
such as oversight of the bureau’s management controls program, have been delegated to ISN’s
chief of staff.

Recommendation 10: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Arms Control, Verification, and Compliance and the Bureau of
Political-Military Affairs, should establish a rating, reviewing, and reporting chain for the
executive director and update the Foreign Affairs Manual accordingly. (Action: ISN, in
coordination with AVC and PM)

Executive Office Structure

        The structure of the executive office is a legacy of the 1999 Arms Control and
Disarmament Agency integration. Since then, staffing, funding, and programs have expanded in
size and complexity, increasing the executive director’s span of control. According to the
executive director, the needs of PM consume the majority of her time, thus increasing the
likelihood that the two other bureaus may receive short shrift. The 15-year old model may not
meet today’s needs.

        Four deputy executive directors support the executive director; each manages one
functional area. Unlike the other executive offices in the Department, here there is no one deputy
who is familiar with and engaged in the full range of executive office functions and crosscutting
issues or who can relieve the executive director of some burdens, act in her absence, or speak
authoritatively with senior leadership.

Recommendation 11: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Human Resources, should designate one of the four deputy
directors as the primary backstop for the executive director and reallocate responsibilities
accordingly. (Action: ISN, in coordination with DGHR)

Executive Customer Service and Outreach

        Responses to OIG inspection questionnaires and interviews indicate employees need one-
stop guidance on topics such as telework, travel, performance management, and ISN Blackberry
policy. New employees note that the lack of an orientation program beyond basic in-processing
translates to a steeper learning curve in gaining an understanding of the entire bureau. Although
the bureau has made an effort both to educate and listen to customers, the executive office has
not conducted customer satisfaction surveys, which would help identify customer needs.

Recommendation 12: The Bureau of International Security and Nonproliferation should
conduct a customer service survey. (Action: ISN)




                                       17
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Workforce Planning and Employee Development

Workforce Planning

        Both the 2004 OIG inspection report 10 and the 2009 Government Accountability Office
      11
report addressed a number of workforce management and planning issues. Several problems
noted in those reports remain.

         Succession planning is one of the lingering issues. ISN’s workforce includes experts in
the areas of nonproliferation, negotiation, and science and technology, among others. Civil
Service employees represent approximately 90 percent of ISN’s workforce. Twenty-one percent
of these employees are eligible to retire now, which is higher than the Department average of 16
percent. Within the next 5 years, 34 percent of these employees will be eligible to retire, creating
a skills gap that could jeopardize the bureau’s ability to carry out its functions. The OIG
inspectors discussed these issues with both the Assistant Secretary and the Under Secretary, who
are both aware of and concerned about these matters. The Bureau of Human Resources has
issued a 5-year workforce and leadership planning paper 12 that might assist ISN leadership in
addressing these issues.

        A paradox of the workforce in ISN is that although there is concern about the loss of
decades of expertise when senior officials leave, there is, at the same time, rapid turnover in the
program offices at the working level. In ISN/ECC, a 26-person office that managed $338 million
from FYs 2009 to 2013 in the Export Control and Related Border Security program, only 3 of the
11 project managers had 6 or more years of experience; 5 had fewer than 3 years of experience.
In the past 5 years, 15 Civil Service employees and 12 contractors have left the office.

       This situation also exists in other ISN offices. At the time of the inspection, ISN/CTR had
25 employees: 5 full-time U.S. Government employees, 1 personal services contractor, 14
contractors, 4 American Academy for the Advancement of Science Fellows, and 1 detailee from
another agency. Records indicate that a total of 71 employees have rotated through this office
since 2007.

        There is a relationship between the need for and lack of a staff development path and the
high turnover at the mid-level ranks of the bureau. Office management and staff attribute the
high turnover of personnel in part to ISN’s inability to offer identifiable career paths. One
possible alternative would be to bring staff in at lower grades in positions with a career ladder.

       The bureau competes with other workforce sectors to recruit and retain highly expert
employees. ISN has not conducted an analysis to determine how this competition affects the
bureau’s ability to maintain a qualified and experienced workforce. The Office of Personnel
Management issued a rule, effective September 2013, which changes the way agencies evaluate
and award recruitment, retention, and relocation bonuses. This rule is intended to help agencies
compete for talent to meet critical mission needs and, in the Department, is typically granted to

10
   Compliance Review – Inspection of the Bureau of Nonproliferation, Report No. ISP-I-05-50, December 2004.
11
   Government Accountability Office Report No. GAO-09-738, June 2009.
12
   Five Year Workforce and Leadership Succession Plan: Fiscal Years 2013–2017, Office of Resource Management
and Organization Analysis (HR/RMA), June 2013.
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

information technology specialists and health care professionals. ISN officials have not met with
the Department’s Director General to explore whether this option is suitable for ISN.

         The bureau faces the challenge of expanding the development of junior and mid-level
staff. ISN has few career-ladder positions. ISN has arranged for a few rotational and temporary
assignments, and some mid-level staff have accompanied delegations overseas. A proposed
rotational program within ISN, AVC, and PM failed. It is time to try again.

         The Assistant Secretary stated that attracting, retaining, and developing the capabilities of
staff is one of the critical challenges facing the bureau; however, neither the front office nor the
executive office has developed a strategic plan to address the human capital challenge. The OIG
team counseled ISN leadership to meet with the Director General’s office and discuss the skills
incentive program.

Recommendation 13: The Bureau of International Security and Nonproliferation, in
coordination with the Office of the Under Secretary for Arms Control and International Security,
should draft a comprehensive, multiyear workforce plan. (Action: ISN, in coordination with T)

Contractors and Inherently Governmental Functions

       Dependence on contractors creates vulnerability and represents a potential control risk.
ISN employs approximately 111 contactors who perform many different functions throughout
the bureau. Approximately half of the contractors work in ISN’s five program offices. Interviews
with more than a dozen contractors involved in managing foreign assistance programs raised
concern that their work may involve inherently governmental functions.

        The Federal Acquisition Regulation Subpart 7.5 states that the conduct of foreign
relations, the determination of foreign policy, and the determination of agency policy are
inherently governmental functions and may not be performed by contractors. Additionally, the
regulation describes functions that are not considered inherently governmental but “may
approach” that status. These functions include services that relate to budget preparation, policy
analysis, or participation in any situation where a contractor may be perceived as an agency
employee or representative. In those cases, the Office of Management and Budget’s procurement
policy states that agencies should provide a greater degree of scrutiny of contactors performing
services in these gray areas.

        The Department uses workforce studies to determine the appropriate balance of
employees and contractors and the appropriate functions of each. Per 3 FAM 2164, each bureau
is responsible for managing its contractor and Federal employee resources appropriately and for
ensuring that only Federal employees perform inherently governmental functions. The FAM
stipulates that Federal employees receive consideration to perform new functions and functions
performed by contractors to implement Section 736 of the Omnibus Appropriations Act of
2009 13 and Office of Management and Budget guidance. 14 The Act stipulates that agencies have
“safeguards and monitoring systems in place to ensure that work performed by contractors has
not changed or been expanded to become an inherently governmental function.”

13
     Pub. L. No. 111-8; Division D.
14
     Managing the Multi-sector Workforce, M-09-26.
                                            19
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 14: The Bureau of Administration, in coordination with the Bureau of
International Security and Nonproliferation, should conduct a workforce study of the program
offices so that only Federal employees perform inherently governmental functions. (Action: A,
in coordination with ISN)

Performance Management

         Personal questionnaires from ISN employees raised concerns about leadership
performance at the director and deputy director levels in several offices. Interviews confirmed
that in several instances, mid-level managers were not setting clear objectives, organizing the
workload efficiently, communicating with staff, holding staff members accountable for their
performance, managing conflicts, or allowing employees to take on new responsibilities and
develop their skills. In one office, for example, many of the management issues the inspectors
identified in the 2004 OIG report persist. The office director still does not communicate specific
assignments clearly. Workloads are uneven. Communication within the office remains poor, and
there are no staff meetings.

        Department regulation 13 FAM 311.2 mandates that mid-level personnel take prescribed
leadership courses according to their grade to build leadership and management skills
progressively over a career. Department regulation 3 FAM 1214 provides leadership and
management principles for Department employees. Interviews revealed that several long-serving
mid-level management employees had not taken the required leadership training courses. The
bureau was not monitoring staff compliance with leadership training requirements. During the
inspection, ISN polled staff to determine who had not attended the mandatory training, a
necessary first step to addressing these leadership deficiencies and their consequences.

Recommendation 15: The Bureau of International Security and Nonproliferation should require
all management staff to complete obligatory leadership training and should monitor compliance
with this requirement. (Action: ISN)

Recommendation 16: The Bureau of International Security and Nonproliferation should include
leadership and management principles in the work requirements and performance plans of
leaders from deputy office director to Assistant Secretary. (Action: ISN)

Training

       There is no bureauwide training plan or prioritized training budget. As a result, bureau
employees may not receive training or other opportunities essential for job performance or
professional development. The executive office’s human resources division does not know
whether employees have individual development plans. Department regulation 3 Foreign Affairs
Handbook (FAH)-1 H-2821.3 a. (3) recommends that supervisors and employees prepare an
annual plan; bureaus may require them, and ISN should. The Bureau of Human Resources offers
sessions on how to prepare these plans. Development opportunities could include intra-
Department and interagency rotations, possible rotations to staff assistant positions, and more
opportunities to work on delegations. ISN and PM could explore whether rotations overseas
might be expanded to allow Civil Service employees to serve as political advisors to the
Department of Defense.

                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 17: The Bureau of International Security and Nonproliferation should require
that each employee have an individual development plan. (Action: ISN)

Recommendation 18: The Bureau of International Security and Nonproliferation should
develop and implement an action plan for mid-level Civil Service staff, including rotational
assignments and overseas opportunities. (Action: ISN)

Recommendation 19: The Bureau of International Security and Nonproliferation should
develop a bureauwide, prioritized training budget. (Action: ISN)

       The bureau has no training coordinator; the executive office’s human resources division
performs training-related administrative processes only. In 2010, the Under Secretary and the
Assistant Secretaries for ISN, AVC, and PM identified the need for a full-time, professional
coordinator to enhance career development opportunities for all employees in the three bureaus.
ISN’s FYs 2014 and 2015 Bureau Resource Requests listed the creation of this position as a
bureau priority. The Department denied the request. The OIG inspectors suggested that the
Under Secretary consider creating a position in the Office of the Under Secretary for Arms
Control and International Security front office to address recruitment, training, and career-
development issues across the bureaus.

Equal Employment Opportunity Program

        ISN does not have an active Equal Employment Opportunity (EEO) program; for many
years, there have been no trained and certified EEO counselors. Department guidance suggests
that employees have a trained colleague within their own bureau from whom to seek EEO
information and guidance. Additionally, 13 FAM 312 states it is mandatory that managers and
supervisors attend EEO/diversity training (for example, Foreign Service Institute course PT 107).
The executive office’s human resources office does not have the ability to track attendance and
identify delinquent employees.

Recommendation 20: The Bureau of International Security and Nonproliferation should
implement an Equal Employment Opportunity program, including a front office statement of
commitment to program principles, appointment and announcement of certified counselors, and
a link to the Office of Civil Rights Web site on the bureau’s home page. (Action: ISN)

Recommendation 21: The Bureau of International Security and Nonproliferation should require
that managers and supervisors attend mandatory Equal Employment Opportunity/diversity
training. (Action: ISN)

General Services

       Among its responsibilities, the executive office’s general services office performs travel,
property management, and procurement functions. During FY 2013, ISN submitted 607
procurement actions through the Ariba procurement system, with a total value of approximately
$38 million. AVC submitted 148 actions worth approximately $5 million. The inspectors spot-
checked transactions from November and December 2013 and did not find any irregularities.


                                       21
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Travel

        Employees are satisfied with the executive office travel services but are dissatisfied with
the Department’s travel provider, Carlson Wagonlit, citing poor service and inconsistency in
interpreting travel rules and regulations. They also expressed dissatisfaction with travel
regulations governing classes of travel, contract fares, and permissible upgrades. To address
these concerns and to educate employees, the travel section organized a well-attended,
bureauwide meeting with transportation and travel management officials from the Bureau of
Administration.

       The FY 2013 ISN and AVC travel budgets totaled approximately $3 million and $2
million, respectively. Both bureaus authorize business class travel in accordance with 14 FAM
567.2-4. The principal deputy assistant secretary in ISN and the AVC chief of staff approve
business class travel, and the executive director has approval authority in their absence. During
FY 2013, ISN approved 62 business class travel requests. All approvals were readily available
and contained sufficient justification for premium travel. Vouchers are processed and travelers
reimbursed with minimal delay.

        During the inspection, the OIG team heard complaints about insufficient travel funds. Of
the 62 approved requests for business class travel, 45 trips were actually taken. Some trips were
canceled or converted to economy class. The OIG team reviewed justifications and vouchers for
the 45 business class trips, which cost a combined total of approximately $401,000. Had the
bureau used economy class, the cost would have been approximately $144,000, a savings of
approximately $257,000, which the bureau could have used to meet other needs. The calculation
of the economy fare travel includes the cost of a 1-day rest stop as permitted by Department
travel policies in 14 FAM 567.

       The principal deputy assistant secretary in ISN controls the bureaus’ travel budgets. He
makes initial allocations to offices at the beginning of each fiscal year, based on travel requests
from each office, and uses monthly travel statements provided by the travel section to make
adjustments to the office totals. However, it is not evident that individual offices rigorously
review participation or consider using the bureau’s videoconferencing capabilities to conduct
meetings instead of more costly travel options. An occasional top-level strategic review of
bureauwide travel would be useful.




                                        22
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
Assistant Secretary Statement of Assurance

         The process to evaluate the bureau’s management controls is flawed and unreliable. The
FY 2013 Assistant Secretary’s management controls statement of assurance, prepared as a
requirement of 2 FAM 20 and the Federal Managers’ Financial Integrity Act of 1982, identified
no material weaknesses or significant deficiencies in the bureau’s management controls system.
Among other requirements, the regulations state that the Assistant Secretary must attest that
programs are carried out efficiently and effectively and in accordance with law and that funds are
accounted for and recorded properly. The ISN chief of staff, who is also the bureau’s
management controls officer, was unfamiliar with the subject of management controls when he
initially assumed responsibility for preparing the statement of assurance for the Assistant
Secretary’s signature. In addition, the executive office plays only an administrative role in the
process. According to ISN leadership, the letter is considered little more than a “rote document.”
This approach lacks rigor and may fail to identify inadequate controls and lead to an inaccurate
Assistant Secretary statement.

Recommendation 22: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of the Comptroller and Global Financial Services, should develop
and implement a system of bureauwide management controls. (Action: ISN, in coordination
with CGFS)

Recommendation 23: The Bureau of International Security and Nonproliferation should
designate the executive director as the bureau management controls officer. (Action: ISN)

Property Management and Purchase Card Program

        ISN’s general services office manages and controls bureau reportable property, including
information technology equipment. The total amount of accountable property, located in multiple
domestic locations, is $7 million. ISN completes annual inventory certifications and
reconciliations, as required by 14 FAM 426, and a random check of inventory records showed no
discrepancies. The FY 2013 property reconciliation certification showed a missing property rate
of 0.58 percent, well below the Department’s 1 percent threshold for reporting missing property
to the Bureau of Administration.

       The general services office also manages the bureau’s purchase and payment card
system, with 435 transactions for ISN in FY 2013 valued at $381,739 and 134 transactions for
AVC valued at $60,311. The office reviews credit card purchase statements monthly and
forwards them to the executive office for approval. The FY 2013 annual program review,
required by 4 FAM 455.3, identified no problems.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Information Management
        The technology division (TD) faces challenges with internal and external communication
arising from the out-of-scope information technology support requirements of ISN, AVC, and
PM, the complexity of systems, and the size and geographic separation of division staff.

       TD manages a complex information technology network composed of 800 end users, 93
applications, and 8 separate networks that support ISN, AVC, and PM. TD has 12 direct-hire
staff members and 70 contractors. Many of TD’s projects are reactive in nature, including
responding to congressional mandates.

        TD employees work in three separate locations and receive service and support from
three help desks, each with its own support software. The Bureau of Information Resource
Management handles all ISN, AVC, and PM OpenNet and ClassNet support requests. In OIG
surveys, customers expressed dissatisfaction with Bureau of Information Resource Management
service and support. TD’s computer operations section spends considerable time resolving
technical issues that are in the Bureau of Information Resource Management’s scope of work, as
specified in the memorandum of understanding. TD plans to address these issues in monthly
meetings with the Bureau of Information Resource Management’s customer liaison office.

Initiatives

       To address the challenges their division faces, TD seeks to transform its operating
environment. The division adopted new software development best practices and began
implementing a management tool known as Serena Business Manager. This new tool is
improving the division’s internal communication, standardizing processes, and improving
oversight of key programs such as the modernization and migration of the Defense Trade and
Application System.

       PM, the largest of the three bureaus reporting to the the Office of the Under Secretary for
Arms Control and International Security, garners most of TD’s support. This situation arises
from the different business requirements of the three bureaus, PM’s larger budget, as well as
PM’s physical proximity to TD. ISN and AVC have to work harder to communicate their
information technology requirements. TD has taken steps to address communication deficiencies
and has assigned an employee to liaise with ISN and AVC on a regular basis.

Communication

        In preinspection surveys, respondents indicated they were unaware of the division’s long-
term and strategic goals. The OIG team’s review of TD’s goals, objectives, and project
information that leadership provided found this information satisfactory but not available to the
entire TD team. As a result, employees do not understand how their work contributes to the
larger picture, leading to frustration and poor morale among lower level employees. This
situation could be addressed through proactive communication throughout TD.




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Collaboration Tools

        OIG survey respondents commented, and the OIG team confirmed, that the bureau’s Web
sites and collaboration tools are difficult to navigate and contain outdated information. TD has
more than 40 SharePoint and Web sites. Individual offices provide content for these sites.
Department regulation 5 FAM 776.2 b. requires that content managers ensure the information
published on Web sites is current, relevant, and accurate. Poor content management practices can
prevent employees from adopting potentially useful collaboration tools. For example, the bureau
lacks a centralized process to issue and create a repository of management notices. Instead, the
executive office or the chief of staff disseminates information via ad hoc emails. The bureau’s
SharePoint administrator could help the executive office update and expand the content of its
SharePoint site.

Recommendation 24: The Bureau of International Security and Nonproliferation should
incorporate and update its SharePoint and Web sites with content provided by the executive
office and other offices. (Action: ISN)

Authorization to Operate

         The authorization to operate for the Defense Trade and Application System, which
supports export licensing and compliance activities, has expired. The last authorization to operate
was signed on June 11, 2011, and expired on November 30, 2012. The bureau has not initiated a
process to renew the authorization to operate. PM, the system owner, does not want to pay for
the full assessment and authorization of this system, because it believes that the system will fail
the assessment and that PM will be required to make security upgrades that are already planned
or underway. In addition, while the system is offline for the assessment, users would be unable to
process and adjudicate U.S. export licenses on the classified network. The bureau currently
adjudicates approximately 300 licenses a day. Department regulation 5 FAM 1065.4 states all
Department information systems that are reportable under the Federal Information Security
Management Act must complete the Department’s system authorization process and receive a
designated approving authority before being permitted to operate. Systems that do not undergo
periodic reassessment and reauthorization to operate create security vulnerabilities on the
Department’s networks.

Recommendation 25: The Bureau of Political-Military Affairs, in coordination with the Bureau
of International Security and Nonproliferation and the Bureau of Information Resource
Management, should obtain a valid authorization to operate for the Defense Trade and
Application System. (Action: PM, in coordination with ISN and IRM)

Environmental Controls

        TD’s data centers do not have the appropriate environmental controls in place to sustain
current network operations. The data centers are unable to provide the required airflow and air-
conditioning needed for their network hardware to operate at optimal levels. TD had to purchase
portable air-conditioning units to keep temperatures at necessary levels. Employees said that
during the summer months they must often shut down lower priority production servers to
prevent the higher priority servers from overheating. TD leadership has worked with the facility
maintenance managers to install new air-conditioning units, but with no success. Department
                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

regulation 12 FAM 629.4-4 requires data center managers to ensure that air-conditioning and
humidity controls are installed as appropriate. Improper or nonexistent environmental controls
can result in disruptions in network and system availability.

Recommendation 26: The Bureau of International Security and Nonproliferation should install
environmental controls that provide the appropriate airflow and air-conditioning to their data
centers. (Action: ISN)




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Security Management
       According to the Bureau of Diplomatic Security (DS), ISN had eight security infractions
and one security violation since January 2012. This number is average for a bureau. During the
same time period, DS reported no security infractions or violations for AVC.

Executive Office Accountability for the Bureaus’ Security Program

        The executive office is not exercising appropriate oversight of the ISN, AVC, and PM
bureau security programs. According to 12 FAM 512.2, the executive director is responsible for
maintaining the security program of the bureau(s), ensuring that the bureau(s) comply with
security requirements, and designating principal and unit security officers. In 2005, the DS
applications and programs division acted on a request by ISN’s executive office and assigned a
bureau security officer to the executive director to oversee the AVC and ISN security programs.
The bureau security officer implements security regulations and provides advice and assistance
on the protection of classified information; however, since his assignment, he has overseen
security only of ISN and PM. Simultaneously, AVC has become an almost entirely sensitive
compartmented information facility. An AVC direct-hire primary and an alternate special
security representative currently have complete security responsibility and authority, including
all other collateral security duties for AVC. This ambiguous and at times fractious relationship
between the special security representative and the bureau security officer has existed since
AVC’s conception in 2005.

        DS proposed a solution to this problem by creating a task-specific memorandum of
agreement between the DS and ISN executive offices that will specifically define bureau security
officer support services for ISN, AVC, and PM. This agreement is currently in draft form.

Recommendation 27: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Diplomatic Security, should complete and sign the
memorandum of agreement on bureau security officer support. (Action: ISN, in coordination
with DS)

         Upon completion of the memorandum of agreement clarifying DS and ISN
responsibilities, ISN’s executive office will also need to define the roles, responsibilities, chain
of reporting, and accountability between the bureau principal and the unit security officers,
special security representatives, and the bureau security officer. In accordance with 12 FAM
512.1-5, “Employees assigned as regional, post, bureau, or unit security officers have the
supervisory and/or the oversight responsibility to ensure that classified material entrusted to their
organizational unit is handled in accordance with the procedures prescribed in this volume.” This
initiative will allow the executive office to forge a leadership role for the security program.

Recommendation 28: The Bureau of International Security and Nonproliferation should define
specific duties and responsibilities and clarify chain of reporting for all security officers within
the bureaus that report to the Under Secretary for Arms Control and International Security.
(Action: ISN)



                                        27
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Unit Security Officer Roles and Responsibilities

        Unit security officers for the individual AVC and ISN offices execute their
responsibilities in accordance with 12 FAM 563.2. The bureau security officer provides periodic
training for unit security officers and informs them of any changes in policy. However, the
majority of security officers interviewed were unaware of the DS guidebook on Principal Duties
of a Unit Security Officer, dated July 2011. This valuable tool is located on the DS applications
and programs division Web site and can assist security personnel in the performance of their
duties. All security officers, except for the AVC and ISN principals assigned in ISN’s executive
office, have received DS unit security officer training.

Recommendation 29: The Bureau of International Security and Nonproliferation should have
all principal unit security officers complete unit security officer training. (Action: ISN)

Security Awareness Refresher Training

        Interviews revealed that DS has conducted neither security awareness training nor annual
refresher briefings for AVC and ISN personnel. The bureau security officer was unaware of this
requirement and has not requested such briefings. In accordance with 12 FAM 564.2, DS is
responsible for directing the establishment of a program “to provide, at a minimum, annual
security training for personnel having continued access to classified information.” Lapses in such
training can lead to security incidents and compromise of classified information.

Recommendation 30: The Bureau of International Security and Nonproliferation should
request, and the Bureau of Diplomatic Security should provide, assistance in establishing a
security awareness training program that includes annual refresher briefings for personnel in the
Bureau of Arms Control, Verification, and Compliance and the Bureau of International Security
and Nonproliferation. (Action: ISN, in coordination with DS)

Bureau Emergency Action Plans

        AVC and ISN are current on all emergency action drills and coordinate these activities as
part of the Harry S Truman facility emergency action plan. The mission critical teams
successfully participated in the April 2013 Eagle Horizon national exercise program. Both
bureaus’ emergency action plans conform to the Department’s revised template as overseen by
the Bureau of Administration, Office of Emergency Management. However, AVC’s and ISN’s
emergency action plans are not accessible on either the executive office Web site or the
individual bureaus’ Intranet sites. In accordance with 6 FAM 416.1-1 (10), the executive director
is responsible for “ensuring the [bureau emergency action plan] is posted on the bureau Web site
and all bureau personnel are aware of the plan and its related procedures” so that bureau
personnel have immediate access to and knowledge of the plan’s contents.

       In addition, 6 FAM 416.1-1 (12) requires the executive office to provide a link to the
Bureau of Administration, Office of Emergency Management SharePoint site for both bureau
and facility emergency action plans from the bureau/office Web site (i.e., OpenNet and
ClassNet). This link allows bureau/office personnel easy access to a full range of emergency
preparedness information as well as information on the bureau plan.

                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 31: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Arms Control, Verification, and Compliance, should post their
emergency actions plans on their respective Intranet sites and establish a link to the Bureau of
Administration’s Office of Emergency Management SharePoint site. (Action: ISN, in
coordination AVC)




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Human Resources, should establish a comptroller’s office to
oversee management of all bureau foreign assistance funding. (Action: ISN, in coordination
with DGHR)

Recommendation 2: The Bureau of International Security and Nonproliferation should
request, and the Bureau of the Comptroller and Global Financial Services should grant, read-only
access to the Global Financial Management System to financial management staff in the program
offices. (Action: ISN, in coordination with CGFS)

Recommendation 3: The Bureau of International Security and Nonproliferation should
institute a monitoring regime for unliquidated balances, supervised by senior leadership, to
deobligate unnecessary balances and to document justifications for continuing obligations that
are not showing quarterly activity. (Action: ISN)

Recommendation 4: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Information Resource Management, the Bureau of the
Comptroller and Global Financial Services, and the Bureau of Administration, should develop a
single, searchable database that interfaces with the Department’s Global Financial Management
System. (Action: ISN, in coordination with IRM, CGFS, and A)

Recommendation 5: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Information Resource Management, the Bureau of the
Comptroller and Global Financial Services, and the Bureau of Administration, should proceed
with development of an interface between the Nonproliferation and Disarmament Fund’s
Financial Information Management System and the Global Financial Management System.
(Action: ISN, in coordination with IRM, CGFS, and A)

Recommendation 6: The Bureau of International Security and Nonproliferation should require
that all eligible program and project management personnel complete contracting officer’s
representative and grants officer representative training and obtain certification. (Action: ISN)

Recommendation 7: The Bureau of International Security and Nonproliferation should
provide program and project management training, contracting with private providers for such
training when necessary. (Action: ISN)

Recommendation 8: The Bureau of International Security and Nonproliferation should
formalize a strategic planning function, reporting to the Assistant Secretary, with responsibility
for establishing priorities, identifying emerging issues, and recommending appropriate
deployment of bureau resources. (Action: ISN)

Recommendation 9: The Bureau of Arms Control, Verification, and Compliance, in
coordination with the Bureau of International Security and Nonproliferation, should develop a
policy paper, cleared at the deputy assistant secretary level, outlining the policy parameters of
breau activities involving the Biological Weapons Convention. (Action: AVC, in coordination
with ISN)

                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Arms Control, Verification, and Compliance and the Bureau of
Political-Military Affairs, should establish a rating, reviewing, and reporting chain for the
executive director and update the Foreign Affairs Manual accordingly. (Action: ISN, in
coordination with AVC and PM)

Recommendation 11: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Human Resources, should designate one of the four deputy
directors as the primary backstop for the executive director and reallocate responsibilities
accordingly. (Action: ISN, in coordination with DGHR)

Recommendation 12: The Bureau of International Security and Nonproliferation should
conduct a customer service survey. (Action: ISN)

Recommendation 13: The Bureau of International Security and Nonproliferation, in
coordination with the Office of the Under Secretary for Arms Control and International Security,
should draft a comprehensive, multiyear workforce plan. (Action: ISN, in coordination with T)

Recommendation 14: The Bureau of Administration, in coordination with the Bureau of
International Security and Nonproliferation, should conduct a workforce study of the program
offices so that only Federal employees perform inherently governmental functions. (Action: A,
in coordination with ISN)

Recommendation 15: The Bureau of International Security and Nonproliferation should
require all management staff to complete obligatory leadership training and should monitor
compliance with this requirement. (Action: ISN)

Recommendation 16: The Bureau of International Security and Nonproliferation should
include leadership and management principles in the work requirements and performance plans
of leaders from deputy office director to Assistant Secretary. (Action: ISN)

Recommendation 17: The Bureau of International Security and Nonproliferation should
require that each employee have an individual development plan. (Action: ISN)

Recommendation 18: The Bureau of International Security and Nonproliferation should
develop and implement an action plan for mid-level Civil Service staff, including rotational
assignments and overseas opportunities. (Action: ISN)

Recommendation 19: The Bureau of International Security and Nonproliferation should
develop a bureauwide, prioritized training budget. (Action: ISN)

Recommendation 20: The Bureau of International Security and Nonproliferation should
implement an Equal Employment Opportunity program, including a front office statement of
commitment to program principles, appointment and announcement of certified counselors, and
a link to the Office of Civil Rights Web site on the bureau’s home page. (Action: ISN)

Recommendation 21: The Bureau of International Security and Nonproliferation should
require that managers and supervisors attend mandatory Equal Employment
Opportunity/diversity training. (Action: ISN)

                                       31
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 22: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of the Comptroller and Global Financial Services, should develop
and implement a system of bureauwide management controls. (Action: ISN, in coordination
with CGFS)

Recommendation 23: The Bureau of International Security and Nonproliferation should
designate the executive director as the bureau management controls officer. (Action: ISN)

Recommendation 24: The Bureau of International Security and Nonproliferation should
incorporate and update its SharePoint and Web sites with content provided by the executive
office and other offices. (Action: ISN)

Recommendation 25: The Bureau of Political-Military Affairs, in coordination with the
Bureau of International Security and Nonproliferation and the Bureau of Information Resource
Management, should obtain a valid authorization to operate for the Defense Trade and
Application System. (Action: PM, in coordination with ISN and IRM)

Recommendation 26: The Bureau of International Security and Nonproliferation should install
environmental controls that provide the appropriate airflow and air-conditioning to their data
centers. (Action: ISN)

Recommendation 27: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Diplomatic Security, should complete and sign the
memorandum of agreement on bureau security officer support. (Action: ISN, in coordination
with DS)

Recommendation 28: The Bureau of International Security and Nonproliferation should
define specific duties and responsibilities and clarify chain of reporting for all security officers
within the bureaus that report to the Under Secretary for Arms Control and International
Security. (Action: ISN)

Recommendation 29: The Bureau of International Security and Nonproliferation should have
all principal unit security officers complete unit security officer training. (Action: ISN)

Recommendation 30: The Bureau of International Security and Nonproliferation should
request, and the Bureau of Diplomatic Security should provide, assistance in establishing a
security awareness training program that includes annual refresher briefings for personnel in the
Bureau of Arms Control, Verification, and Compliance and the Bureau of International Security
and Nonproliferation. (Action: ISN, in coordination with DS)

Recommendation 31: The Bureau of International Security and Nonproliferation, in
coordination with the Bureau of Arms Control, Verification, and Compliance, should post their
emergency actions plans on their respective Intranet sites and establish a link to the Bureau of
Administration’s Office of Emergency Management SharePoint site. (Action: ISN, in
coordination AVC)




                                        32
                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name      Arrival Date
Assistant Secretary                                   Thomas M. Countryman           08/2012
Executive Director                                          Sonna Stampone           08/2012
Principal Deputy Assistant Secretaryfor Non-Nuclear      Vann H. Van Diepen          06/2009
  and Counterproliferation
Office of Missile, Biological and Chemical                   Pamela Durham          01/2008
  Nonproliferation
Office of Conventional Arms Threat Reduction                     Ann Ganzer         09/2008
Office of Counterproliferation Initiatives                      Philip Foley        10/2006
Biological Policy Staff                                     Christopher Park        10/2010
Deputy Assistant Secretary For Nuclear Affairs               C.S. Eliot Kang        09/2011
Office of Multilateral Nuclear and Security Affairs                John Fox         07/2012
Office of Nuclear Energy, Safety, and Security              Richard Stratford       06/2006
  Affairs
Office of Regional Affairs                                   Robert Gromoll         04/1999
Deputy Assistant Secretary For Non-proliferation           Simon G. Limage          08/2012
  Programs
Office of Cooperative Threat Reduction                       Phillip Dolliff        08/2011
Office of Export Control Cooperation                                Nan Fife        08/2013
Nonproliferation and Disarmament Fund                         Steven Saboe          04/2006
Office of Weapons of Mass Destruction Terrorism             Geoffrey Odlum          06/2013
Office of Strategic Communications and Outreach               Margo Squire          06/2011
Fissile Material Coordinator                                 Michael Guhin          06/2008
Coordinator for Threat Reduction Programs                    Bonnie Jenkins         07/2009




                                     33
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AVC              Bureau of Arms Control, Verification, and Compliance

Department       U.S. Department of State

DS               Bureau of Diplomatic Security

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

GFMS             Global Financial Management System

ISN              Bureau of International Security and Nonproliferation

ISN/CTR          Office of Cooperative Threat Reduction

ISN/ECC          Office of Export Control Cooperation

ISN/MNSA         Office of Multilateral and Security Affairs

ISN/NDF          Nonproliferation and Disarmament Fund

ISN/WDMT         Office of Weapons of Mass Destruction and Terrorism

PM               Bureau of Political-Military Affairs

TD               Technology division

WMD              Weapons of mass destruction




                            34
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
